No. 20-

IN THE

'upreme Court of the ?kiniteb Otateo
NATIONAL COALITION FOR MEN, JAMES LESMEISTER,
AND ANTHONY DAVIS,
Petitioners,
v.
SELECTIVE SERVICE SYSTEM AND DONALD BENTON,
AS DIRECTOR OF SELECTIVE SERVICE SYSTEM,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,991 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 8, 2021.

/
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

